DOCKET NO.:

SUPREME COURT OF THE
UNITED STATES

BERKA, GEORGE
OFFICE OF THE CLERK
v.
CITY OF MIDDLETOWN, ET, AL.

AUGUST 27, 2021

AFFIDAVIT OF SERVICE
I, George Berka, hereby certify that on August 27th, 2021,1 caused to be served
three (3) copies of the Petition and Appendix for the above - captioned matter,
Docket No.
to the following party, via electronic mail and / or the United
States Postal Service, postage prepaid:
Brig Smith, General Counsel
City of Middletown
245 DeKoven Dr.
Middletown, CT 06457
Also, on the same date as above, I sent this Court one (1) copy of the same Petition
~ and Appendix, via tlie United States Postal Service, postage prepaid’
All parties required to be served have been served.
I declare under penalty of perjury that the following is true and correct.

Executed on August 27th, 2021

George Berka,
Petitioner

RECEIVED
SEP - 8 2021

t

